TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          No Fair Tax Collection Practices
                             Violations Were Closed in
                                  Fiscal Year 2011



                                           April 26, 2012

                              Reference Number: 2012-10-044




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                     HIGHLIGHTS


NO FAIR TAX COLLECTION PRACTICES                        in monetary awards for damages to taxpayers
VIOLATIONS WERE CLOSED IN                               because of an FTCP violation. However, TIGTA
FISCAL YEAR 2011                                        identified one case that should have been coded
                                                        and worked as a potential FTCP violation.
                                                        TIGTA determined the case was not considered
Highlights                                              as a potential FTCP violation because guidance
                                                        describing FTCP violations did not adequately
                                                        define the allegation in this case as a potential
Final Report issued on April 26, 2012
                                                        violation.
Highlights of Reference Number: 2012-10-044             WHAT TIGTA RECOMMENDED
to the Internal Revenue Service Chief Counsel
and the Internal Revenue Service Human                  TIGTA recommended that the IRS Human
Capital Officer.                                        Capital Officer: 1) clarify the descriptions and
                                                        explanations of FTCP issue codes to ensure
IMPACT ON TAXPAYERS                                     potential FTCP violations are coded and worked,
                                                        and 2) reevaluate the miscoded case and
The abuse or harassment of taxpayers by
                                                        determine whether there was a violation of any
IRS employees while attempting to collect taxes
                                                        FTCP provision.
reflects poorly on the IRS and can have a
negative impact on voluntary compliance. It can         In response to the report, IRS management
also result in civil damages against the Federal        agreed with both recommendations. The
Government when Fair Tax Collection Practices           IRS Human Capital Office issued new guidance
(FTCP) are violated. During Fiscal Year 2011,           expanding the definition for two of the seven
there were no cases involving FTCP violations           FTCP issue codes and reevaluated the
for which an IRS employee received                      miscoded case to confirm there was no violation
administrative disciplinary action, and there were      of any FTCP provision. However, IRS
no taxpayers who received civil damages for an          management stated they believe the case was
FTCP violation. As such, taxpayers have                 coded properly. TIGTA continues to believe the
reasonable assurance that communications with           case was miscoded because the taxpayer
the IRS in connection with the collection of            alleged the revenue officer’s actions were
unpaid Federal taxes generally did not violate          punitive and caused financial harm. This
the FTCP statute.                                       allegation can only be confirmed by coding the
                                                        case with an FTCP issue code and evaluating it
WHY TIGTA DID THE AUDIT                                 using the FTCP criteria.
Section 1102(d)(1)(G) of the IRS Restructuring
and Reform Act of 1998 requires TIGTA to
include in one of its Semiannual Reports to
Congress information regarding administrative
or civil actions related to FTCP violations listed
in 26 U.S.C. Section 6304. This audit was
conducted as part of TIGTA’s Fiscal Year 2012
Annual Audit Plan and addresses the major
management challenge of Taxpayer Protection
and Rights. The overall objective of this review
was to obtain information on IRS administrative
or civil actions resulting from FTCP violations by
IRS employees.
WHAT TIGTA FOUND
The IRS did not close any cases in Fiscal
Year 2011 that it classified as FTCP violations.
In addition, there were no civil actions resulting
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                April 26, 2012


 MEMORANDUM FOR CHIEF COUNSEL
                INTERNAL REVENUE SERVICE HUMAN CAPITAL OFFICER

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – No Fair Tax Collection Practices Violations Were
                                 Closed in Fiscal Year 2011 (Audit # 201210001)

 This report presents the results of our review of Fair Tax Collection Practices1 (FTCP) violations
 during Fiscal Year 2011. The overall objective of this review was to obtain information on
 Internal Revenue Service (IRS) administrative or civil actions resulting from violations of the
 FTCP for cases opened after July 22, 1998, and closed during Fiscal Year 2011. Section
 1102(d)(1)(G) of the IRS Restructuring and Reform Act of 19982 requires the Treasury Inspector
 General for Tax Administration to include in one of its Semiannual Reports to Congress
 information regarding administrative or civil actions related to FTCP violations. This audit was
 conducted as part of the Treasury Inspector General for Tax Administration Office of Audit
 Fiscal Year 2012 Annual Audit Plan and addresses the major management challenge of Taxpayer
 Protection and Rights.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
 Exempt Organizations), at (202) 622-8500.




 1
     26 U.S.C. Section 6304 (2007).
 2
     Pub. L. No. 105-206, 112 Stat. 702-703.
                                              No Fair Tax Collection Practices
                                         Violations Were Closed in Fiscal Year 2011




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          No Cases Were Closed As Fair Tax Collection Practices
          Violations; However, One Potential Violation Was Not
          Identified ....................................................................................................... Page 3
                    Recommendations 1 and 2: ................................................ Page 4

          No Fair Tax Collection Practices Violations Resulted in
          Civil Damages (Monetary Awards) to Taxpayers ........................................ Page 5
          A New Control Has Eliminated Instances Where Cases
          Were Removed From the Inventory System Without
          Proper Documentation .................................................................................. Page 5

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 6
          Appendix II – Major Contributors to This Report ........................................ Page 8
          Appendix III – Report Distribution List ....................................................... Page 9
          Appendix IV – Outcome Measure ................................................................ Page 10
          Appendix V – Fair Tax Collection Practices Provisions .............................. Page 11
          Appendix VI – Fair Tax Collection Practices Violation Issue Codes .......... Page 12
          Appendix VII – Management’s Response to the Draft Report ..................... Page 13
              No Fair Tax Collection Practices
         Violations Were Closed in Fiscal Year 2011




               Abbreviations

ALERTS   Automated Labor and Employee Relations Tracking System
FTCP     Fair Tax Collection Practices
IRS      Internal Revenue Service
                                       No Fair Tax Collection Practices
                                  Violations Were Closed in Fiscal Year 2011




                                             Background

As originally enacted, the Fair Debt Collection Practices Act1 included provisions that prohibit
various collection abuses and harassment in the private sector. However, the restrictions did not
apply to the Federal Government until passage of the Internal Revenue Service (IRS)
Restructuring and Reform Act of 1998.2 Congress believed that it was appropriate to require the
IRS to comply with certain portions of the Fair Debt Collection Practices Act and be at least as
considerate to taxpayers as private creditors are required to be with their customers. The
IRS Restructuring and Reform Act of 1998 Section (§) 3466 requires the IRS to follow
provisions, known as Fair Tax Collection Practices (FTCP),3 similar to those in the Fair Debt
Collection Practices Act.
IRS employees who violate any FTCP provision are                          IRS employees are required to
subject to disciplinary actions. Violations and related                      follow Fair Tax Collection
disciplinary actions are tracked on the IRS Human                        Practices, similar to those in the
                                                                        Fair Debt Collection Practices Act.
Capital Officer’s Automated Labor and Employee
Relations Tracking System (ALERTS). In addition, the
Federal Government may be subject to claims for
damages under 26 U.S.C. § 7433, Civil Damages for
Certain Unauthorized Collection Actions, if the
FTCP violations are substantiated. Taxpayer civil
actions are tracked on the Office of Chief Counsel’s
Counsel Automated System Environment.
The IRS Restructuring and Reform Act of 1998 § 1102(d)(1)(G)4 requires the Treasury Inspector
General for Tax Administration to include in one of its Semiannual Reports to Congress
information regarding administrative or civil actions related to FTCP violations listed in
26 U.S.C. § 6304.5 This report must provide a summary of such actions and include any
judgments or awards granted to taxpayers. The Treasury Inspector General for Tax
Administration is required to report as violations the actions taken by IRS employees who were
involved in a collection activity and who received a disciplinary action that is considered an




1
  15 U.S.C. §§ 1601 note, 1692-1692o (2006).
2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
3
  See Appendix V for a detailed description of FTCP provisions.
4
  Pub. L. No. 105-206, 112 Stat. 702-703.
5
  26 U.S.C. § 6304 (2007).
                                                                                                              Page 1
                                       No Fair Tax Collection Practices
                                  Violations Were Closed in Fiscal Year 2011



administration action.6 Information from this report will be used to meet the requirements of the
IRS Restructuring and Reform Act of 1998 § 1102 (d)(1)(G).
At the time of this report, the IRS Human Capital Office was revising its guidance for coding
potential FTCP violations on the ALERTS. As a result, this report might not reflect the most
current status of the IRS Human Capital Office’s efforts to ensure potential FTCP violations are
identified and addressed.
This review was performed at the offices of the IRS Human Capital Officer and the
Chief Counsel in the IRS National Headquarters in Washington, D.C., during the period
November 2011 through January 2012. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




6
 The law does not provide a definition of administrative action; however, for this review, we used the
IRS’s definition, which is action that ranges from a letter of admonishment to removal.
                                                                                                         Page 2
                                          No Fair Tax Collection Practices
                                     Violations Were Closed in Fiscal Year 2011




                                          Results of Review

In Fiscal Year 2011, the IRS did not close any cases that it classified as FTCP violations. In
addition, there were no civil actions resulting in monetary awards for damages to taxpayers
because of an FTCP violation. As such, taxpayers have reasonable assurance that
communications with the IRS in connection with the collection of unpaid Federal taxes did not
violate the FTCP statute. However, we identified one case that should have been coded and
worked as a potential FTCP violation. Accurately coding and working potential FTCP violations
is important because the abuse or harassment of taxpayers by IRS employees while attempting to
collect taxes reflects poorly on the IRS and can have a negative impact on voluntary compliance.

No Cases Were Closed As Fair Tax Collection Practices Violations;
However, One Potential Violation Was Not Identified
IRS employees are prohibited from using abusive or harassing behavior towards taxpayers in
connection with the collection of unpaid Federal taxes. When allegations of misconduct are
received, the IRS controls the allegation on the ALERTS7 by assigning an issue code defining the
alleged violation, gathers information regarding the facts and circumstances surrounding the
allegation, and decides what action, if any, should be taken against the employee.
Although the IRS did not close any cases in Fiscal
Year 2011 with an FTCP issue code, we determined                                   Although the IRS did not
one case that was closed under a different issue code                           classify any cases as potential
should have been coded as a potential FTCP violation.                          FTCP violations on its inventory
Instead of classifying the case as a potential FTCP                            database, we identified one case
violation, IRS Human Capital Office officials classified                      that should have been coded and
                                                                                worked as a potential violation.
the case as an unprofessional conduct case and
determined that the revenue officer’s actions were not
unprofessional. Classifying the case as a potential FTCP
violation would have required officials to evaluate the
allegation using FTCP criteria which is different from the
criteria used to evaluate unprofessional conduct. We
believe this case should have been coded and worked as a
potential FTCP violation because the taxpayer alleged a
revenue officer caused financial harm by attempting to
levy wages from a prospective employer. The taxpayer


7
    The IRS assigns an issue code to a case to identify the potential misconduct issue(s) that needs to be addressed.
                                                                                                                 Page 3
                                         No Fair Tax Collection Practices
                                    Violations Were Closed in Fiscal Year 2011



claimed the revenue officer’s action was punitive because it was premature and effectively
undermined the taxpayer’s chance of employment.
The allegation was not considered as a potential FTCP violation because guidance describing
FTCP violations did not adequately define this as a potential violation. For example, the
FTCP issue code most applicable to this allegation only describes the use or threat of physical
harm8 and does not include financial harm, as was alleged in this case.
If the case had been coded and worked as a potential FTCP violation and it was determined the
revenue officer’s actions violated the provisions in the FTCP statute, the taxpayer may have been
eligible for civil damages against the Federal Government.
Management Action: The IRS Workforce Relations function has begun the process of clarifying
the description and explanation of this issue code to incorporate the potential for harm that was
identified in this case. In addition, this case has prompted the IRS to consider whether the
descriptions for other FTCP issue codes are too restrictive.

Recommendations
Recommendation 1: The IRS Human Capital Officer should clarify the descriptions and
explanations of the FTCP violations issue codes to ensure taxpayers’ allegations in connection
with collection-related activities of unpaid Federal taxes are accurately coded and worked.
           Management’s Response: The IRS agreed with this recommendation. The
           IRS Human Capital Office revised two of the seven issue codes associated with
           FTCP criteria. Both issue codes are relevant to taxpayer protection and were expanded to
           include allegations of all types of taxpayer harassment and abuse. The Field Operations
           Associate Director was provided new guidance for dissemination.
Recommendation 2: The IRS Human Capital Officer should reevaluate the miscoded case
and determine whether there was a violation of any FTCP provision.
           Management’s Response: The IRS agreed with this recommendation. The
           IRS Human Capital Office examined the case using FTCP criteria and confirmed the
           revenue officer did not threaten to use violence or do harm to any taxpayer, nor was the
           levy inappropriately issued. There was no violation of any other FTCP provision
           including inappropriate communication, obscene/profane language, telephone
           harassment, or lack of identity disclosure. The revenue officer acted within the
           parameters of his or her position. Therefore, the IRS Human Capital Office believes the
           case was coded properly.



8
    See Appendix VI for a detailed description of FTCP violation issue codes.
                                                                                             Page 4
                                          No Fair Tax Collection Practices
                                     Violations Were Closed in Fiscal Year 2011



           Office of Audit Comment: While we appreciate the IRS Human Capital Office for
           reevaluating the case, we continue to believe the case was miscoded. The taxpayer
           alleged the revenue officer’s actions were punitive and caused financial harm. This
           allegation can be confirmed only by coding the case with an FTCP issue code and
           evaluating it using the FTCP criteria.

No Fair Tax Collection Practices Violations Resulted in Civil Damages
(Monetary Awards) to Taxpayers
Internal Revenue Code § 74339 provides that a taxpayer may bring a civil action for damages
against the Federal Government if an officer or employee of the IRS recklessly, intentionally, or
negligently disregards any provision of the Internal Revenue Code or related regulation in
connection with the collection of any unpaid Federal tax. There were no cases closed on the
Counsel Automated System Environment database during Fiscal Year 2011 for which the IRS
paid civil damages to taxpayers resulting from FTCP violations.

A New Control Has Eliminated Instances Where Cases Were Removed
From the Inventory System Without Proper Documentation
Controlling inventory on the ALERTS is important to prevent the unsubstantiated removal of
cases, including FTCP violations, especially those that may warrant IRS management
administrative actions. Although no FTCP violations were identified in the ALERTS data we
reviewed, we determined that 30 of the 18,510 cases opened in
Fiscal Year 2011 were subsequently removed from the ALERTS            Since implementing an
making them unavailable for our review. As a result, we could          audit control log, the
                                                                     IRS Human Capital Office
not verify whether these cases were FTCP violations.
                                                                                            has been able to
In April 2011, the IRS implemented an audit control log on the         substantiate the reason
                                                                      for removing cases from
ALERTS database that appears to have addressed this issue by
                                                                       the inventory database.
eliminating cases removed without proper documentation. In the
first six months of Fiscal Year 2011, there were 28 cases
removed from the ALERTS. We requested documentation to
support removal for 10 of the 28 cases and found that
documentation was not maintained to support the removal of four
(40 percent) of them.10 However, since implementation of the
new audit control log, only two cases have been removed and in
both instances, IRS Human Capital Office officials were able to
provide documentation to substantiate that their removal was due to a system outage.

9
    26 U.S.C. § 7433.
10
     A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 5
                                      No Fair Tax Collection Practices
                                 Violations Were Closed in Fiscal Year 2011



                                                                                              Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this audit was to obtain information on any IRS administrative or civil
actions resulting from violations of the FTCP for cases opened after July 22, 1998, and closed
during Fiscal Year 2011. To accomplish this objective, we:
I.      Obtained all ALERTS data and performed the following tests to validate the accuracy
        and completeness of the data.
        A. Performed checks of the data to determine whether information in data fields was
           reasonable. For example, we determined if date fields contained dates, if any blank
           fields were explainable, and if fields contained only applicable data required for that
           field.
        B. Performed a query of ALERTS data to determine whether there were unexplained
           gaps in the sequential order1 of case numbers, etc. We selected a judgmental sample2
           of 10 of the 28 cases that had been removed from the ALERTS prior to
           implementation of the ALERTS control log and requested documentation supporting
           their removal. We determined a sample size of 10 cases was appropriate to identify
           an inventory control weakness. In addition, we reviewed two cases that were
           removed from the ALERTS after implementation of the ALERTS control log and
           requested documentation to support their removal.
        C. Performed a query of the ALERTS data to identify cases opened after July 22, 1998,
           with an issue code of 141 to 1473 and closed during Fiscal Year 2010, and confirmed
           that the resulting number of violations matched the number provided by the IRS
           during the prior year’s audit.4
II.     Identified the number of FTCP violations resulting in administrative actions for any cases
        opened after July 22, 1998, and closed during Fiscal Year 2011.
        A. Performed a query of the ALERTS to identify cases coded as FTCP violations that
           were opened after July 22, 1998, and closed during Fiscal Year 2011 and determined
           whether any cases involving FTCP violations resulted in administrative actions.

1
  Only Fiscal Year 2011 ALERTS data were reviewed to determine whether there were unexplained gaps in the
sequential order of case numbers.
2
  We used judgmental sampling to select cases because we did not plan to project the results.
3
  See Appendix VI for a description of FTCP violation issue codes.
4
  Treasury Inspector General for Tax Administration, Ref No 2011-10-045, Collection Employees Adhered to Fair
Tax Collection Practices During Fiscal Year 2010 (Apr. 2011).
                                                                                                       Page 6
                                 No Fair Tax Collection Practices
                            Violations Were Closed in Fiscal Year 2011



       B. Performed a query of the ALERTS for cases opened after July 22, 1998, and closed
          during Fiscal Year 2011, and analyzed the results to determine whether any cases
          were miscoded and should have been coded as FTCP violations.
       C. Verified query results in Steps II.A. and B. by confirming the number of violations
          with IRS personnel’s query of the ALERTS database.
III.   Identified the number of FTCP violations resulting in IRS civil actions (judgments or
       awards granted) by obtaining a computer extract from the Office of Chief Counsel’s
       Counsel Automated System Environment database of Subcategory 6304 (established to
       track FTCP violations) cases opened after July 22, 1998, and closed during Fiscal
       Year 2011. Due to time constraints, we did not conduct validation tests of this system.
       The Fiscal Year 2011 data were consistent with those of past years, and there is low risk
       that cases were misclassified because qualified attorneys were deciding whether each
       case met the legal definition of an FTCP violation. For these reasons, we considered the
       data’s reliability as undetermined but suitable for use in this report.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the guidance used to code and work
potential FTCP violation cases, FTCP provisions used to identify potential violations, and the
ALERTS audit control log to substantiate the removal of cases from the database. We evaluated
these controls by interviewing management, performing queries of ALERTS data, and reviewing
database controls used to capture information on the ALERTS.




                                                                                          Page 7
                               No Fair Tax Collection Practices
                          Violations Were Closed in Fiscal Year 2011



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
James V. Westcott, Audit Manager
John W. Baxter, Lead Auditor
Julia Moore, Senior Auditor




                                                                                   Page 8
                               No Fair Tax Collection Practices
                          Violations Were Closed in Fiscal Year 2011



                                                                   Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Workforce Relations, IRS Human Capital Officer OS:HC:R
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Chief Counsel CC
   IRS Human Capital Officer OS:HC




                                                                          Page 9
                                  No Fair Tax Collection Practices
                             Violations Were Closed in Fiscal Year 2011



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Reliability of Information – Actual; one miscoded FTCP violation case (see page 3).

Methodology Used to Measure the Reported Benefit:
We reviewed closed Fiscal Year 2011 ALERTS cases that involved collection activities and
were not classified as FTCP violations. We determined one case that was closed under a
non-FTCP issue code should have been coded and worked as a potential FTCP violation. Instead
of classifying the case as a potential FTCP violation, IRS Human Capital Office officials
classified the case as an unprofessional conduct case.




                                                                                          Page 10
                                        No Fair Tax Collection Practices
                                   Violations Were Closed in Fiscal Year 2011



                                                                                     Appendix V

                Fair Tax Collection Practices Provisions

To ensure equitable treatment of debt collectors in the public and private sectors, the
IRS Restructuring and Reform Act of 19981 requires the IRS to comply with certain provisions
of the Fair Debt Collection Practices Act.2 Specifically, the IRS may not communicate with
taxpayers in connection with the collection of any unpaid tax:
          At unusual or inconvenient times.
          If the IRS knows that the taxpayer has obtained representation from a person authorized
           to practice before the IRS and the IRS knows or can easily obtain the representative’s
           name and address.
          At the taxpayer’s place of employment, if the IRS knows or has reason to know that such
           communication is prohibited.
In addition, the IRS may not harass, oppress, or abuse any person in connection with any tax
collection activity or engage in any activity that would naturally lead to harassment, oppression,
or abuse. Such conduct specifically includes, but is not limited to:
          Use or threat of violence or harm.
          Use of obscene or profane language.
          Causing a telephone to ring continuously with harassing intent.
          Placement of telephone calls without meaningful disclosure of the caller’s identity.




1
    Pub. L. No. 105-206, 112 Stat. 768-769.
2
    15 U.S.C. §§ 1601 note, 1692-1692p (2006).
                                                                                              Page 11
                                    No Fair Tax Collection Practices
                               Violations Were Closed in Fiscal Year 2011



                                                                                   Appendix VI

 Fair Tax Collection Practices Violation Issue Codes

  Issue Code                                         Description
     141          CONTACT TAXPAYER UNUSUAL TIME/PLACE – Contacting a taxpayer
                  before 8:00 a.m. or after 9:00 p.m., or at an unusual location or time, or location
                  known or which should be known to be inconvenient to the taxpayer.
     142          CONTACT TAXPAYER WITHOUT REPRESENTATIVE – Contacting a
                  taxpayer directly without the consent of the taxpayer’s Power of Attorney.
     143          CONTACT AT TAXPAYER EMPLOYMENT WHEN PROHIBITED –
                  Contacting a taxpayer at their place of employment when it is known or should
                  be known that the taxpayer’s employer prohibits the taxpayer from receiving
                  such communication.
     144          USE/THREAT OF PHYSICAL HARM – Conduct which is intended to harass
                  or abuse a taxpayer, or conduct which uses or threatens to use violence or harm.
     145          USE OBSCENE/PROFANE LANGUAGE TO ABUSE – The use of obscene
                  or profane language toward a taxpayer.
     146          CONTINUOUS PHONE CALLS WITH INTENT TO HARASS – Causing a
                  taxpayer’s telephone to ring continuously with harassing intent.
     147          PHONE CALLS WITHOUT MAKING FULL IDENTIFICATION
                  DISCLOSURE – Contacting a taxpayer by telephone without providing a
                  meaningful disclosure of the IRS employee’s identity.
Source: IRS ALERTS User Manual (April 2011).




                                                                                             Page 12
               No Fair Tax Collection Practices
          Violations Were Closed in Fiscal Year 2011



                                                 Appendix VlI

Management’s Response to the Draft Report




                                                       Page 13
     No Fair Tax Collection Practices
Violations Were Closed in Fiscal Year 2011




                                             Page 14
     No Fair Tax Collection Practices
Violations Were Closed in Fiscal Year 2011




                                             Page 15
     No Fair Tax Collection Practices
Violations Were Closed in Fiscal Year 2011




                                             Page 16
